<html>
<title> - GLOBAL INTERNET FREEDOM AND THE RULE OF LAW, PART II</title>
<body><pre>[Senate Hearing 111-684]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-684
 
          GLOBAL INTERNET FREEDOM AND THE RULE OF LAW, PART II 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             MARCH 2, 2010

                               ----------                              

                          Serial No. J-111-77

                               ----------                              

         Printed for the use of the Committee on the Judiciary

















          GLOBAL INTERNET FREEDOM AND THE RULE OF LAW, PART II






















                                                        S. Hrg. 111-684

          GLOBAL INTERNET FREEDOM AND THE RULE OF LAW, PART II

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 2, 2010

                               __________

                          Serial No. J-111-77

                               __________

         Printed for the use of the Committee on the Judiciary

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

61-829 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel

                Subcommittee on Human Rights and the Law

                 RICHARD J. DURBIN, Illinois, Chairman
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
                      Joseph Zogby, Chief Counsel
                 Brooke Bacak, Republican Chief Counsel



















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     3
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement and attachments...........................    34
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   245

                               WITNESSES

MacKinnon, Rebecca, Visiting Fellow at the Center for Information 
  Technology Policy, Princeton University, Princeton, New Jersey, 
  and Co-Founder, Global Voices Online...........................    23
Memarian, Omid, Iranian Blogger, San Francisco, California.......    24
Posner, Michael H., Assistant Secretary for Democracy, Human 
  Rights, and Labor, Department of State, Washington, DC.........     4
Weitzner, Daniel J., Associate Administrator for the Office of 
  Policy Analysis and Development, National Telecommunications 
  and Information Administration, Department of Commerce, 
  Washington, DC.................................................     6
Wong, Nicole, Vice President and Deputy General Counsel, Google 
  Inc., Mountain View, California................................    21

                       SUBMISSIONS FOR THE RECORD

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois, letters to Tech Companies:
    February 2, 2010, letter Regarding Internet Freedom in China.    39
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois and Hon. Tom Coburn, a U.S. Senator from the State of 
  Oklahoma, joint letters to Tech Companies:
    August 7, 2010, letter Human Rights Code of Conduct..........    46
    Responses to January 29, 2010 letter:
      Acer Incorporated, Lydia Wu, General Counsel, Taiwan, 
        R.O.C., March 1, 2010 letter and attachments.............    49
      Amazon.com, Paul Misener, Vice President, Global Public 
        Policy, Seattle, Washington, February 18, 2010 letter....    66
      Apple Incorporated, Bruce Sewell, Senior Vice President & 
        General Counsel, February 19, 2010 letter................    68
      AT&T, Timothy P. McKone, Executive Vice President, Federal 
        Relations, Washington, February 18, 2010 letter..........    70
      Cisco Systems, Incorporated, Mark Chandler, Senior Vice 
        President and General Counsel, February 19, 2010 letter..    72
      Dell Incorporated, Gilbert F. Casellas, Vice President 
        Corporate Responsibility, February 18, 2010 letter.......    75
      eBay, John Donahoe, President and Chief Executive Officer, 
        San Jose, California, February 18, 2010 letter...........    78
      Facebook, Timothy Sparapani, Director, Public Policy, Palo 
        Alto, California, February 19, 2010 letter...............    80
      Fortinet, Incorporated, John Whittle, Vice President, 
        General Counsel, Sunnyvale, California, February 19, 2010 
        letter...................................................    83
      Hewlett-Packard Company, Larry Irving, Vice President, 
        Global Government Affairs, Washington, DC, February 19, 
        2010 letter..............................................    85
      IBM, Christopher A. Padilla, Vice President, Governmental 
        Programs, Washington, DC, February 19, 2010 letter.......    91
      Lenovo, Rachel A. Adams, Vice President and Assistant 
        General Counsel, Washington, DC, February 19, 2010 letter    93
      Motorola, Karen P. Tandy, Senior Vice President, Public 
        Affairs and Communications, Schaumburg, Illinois, 
        February 15, 2010 letter.................................    95
      MySpace.com, Rupert Murdoch, Chairman and Chief Executive 
        Officer, New York, New York, February 18, 2010 letter....    97
      Nokia, Olli-Pekka Kallasvuo, President and Chief Executive 
        Officer, Helsinki, Finland, February 23, 1010............    99
      Nokia Siemens Networks, Rajeev Suri, Chief Executive 
        Office, Espoo, Finland, February 19, 2010 letter.........   101
      Oracle Corporation, Jason M. Mahler, Vice President, 
        Government Affairs, Washington, DC, February 19, 2010 
        letter...................................................   103
      Paoletta, Mark R., Partner, Dickstein Shapiro, LLP, on 
        behalf of McAfee, Inc., Washington, DC, February 19, 2010 
        letter...................................................   105
      RIM, Robert E. Crow, Vice President, Industry, Goverment & 
        University Relations, Washington, DC, February 19, 2010 
        letter...................................................   109
      SAP, February 19, 2010 letter..............................   111
      Siemens, Kathleen Ambrose, Senior Vice President, 
        Government Affairs, Washington, DC, letter...............   113
      Skype, Josh Silverman, CEO Luxembourg, February 18, 2010 
        letter...................................................   114
      Sprint, Vonya B. McCann, Senior Vice President Government 
        Affairs, Washington DC, February 19, 2010 letter.........   119
      Twitter, Alexander Macgillivray, General Counsel, San 
        Francisco, California, February 19, 2010 letter..........   121
      Verizon, Kathryn C. Brown, Senior Vice President, Public 
        Policy Development & Corporate Responsibility, 
        Washington, DC, February 19, 2010 letter.................   124
      Vodafone, Vittorio Colao, Group Chief Executive, Berkshire, 
        England, February 19, 2010 letter........................   127
      Websense, Gene Hodges, Chief Executive Officer, San Diego, 
        California, February 17, 2010 letter.....................   128
    Symantec, Enrique Salem, Mountain View, California, March 5, 
      2010 letter................................................   131
    Response from Tech Companies letters:
      3Com Corporation, Neal Goldman, Executive Vice President, 
        Chief Administrative and Legal Officer, Marlborough, 
        Massachusetts, August 12, 2009...........................   133
      3Com Corporation, Robert Mao, Chief Executive Officer, 
        Marlborough, Massachusetts, March 22, 12010..............   135
      Apple, Daniel Cooperman, Senior Vice President, General 
        Counsel & Secretary, Cupertino, California, August 27, 
        2009 letter..............................................   136
      AT&T Services, Inc., Timothy P. McKone, Executive Vice 
        President, Federal Relations, Washington, DC, August 25, 
        2009 letter..............................................   145
      CISCO Systems, Inc., Mark Chandler, Senior Vice President 
        and General Counsel, San Jose, California, August 27, 
        2009 letter..............................................   148
      Dell Inc., Gilbert F. Casellas, Vice President, Corporate 
        Responsibility, Washington, DC, August 27, 2009 letter...   151
      eBay Inc., John Donahoe, President and Chief Executive 
        Officer, San Jose, California, September 1, 2009 letter..   154
      Facebook, Timothy Sparapani, Director, Public Policy, Palo 
        Alto, California, August 27, 2009 letter.................   155
      Fortinet, John Whittle, Vice President, General Counsel, 
        Sunnyvale, California, August 27, 2009 letter............   160
      Hewlett-Packard Company, Bruce Ives, Vice President and 
        Deputy General Counsel, Global Alliances & Government 
        Affairs, Palo Alto, California, August 27, 2009 letter...   161
      Lenovo, Elizabeth A. Hyman, Government Affairs, Washington, 
        DC, August 14, 2009 letter...............................   166
      Motorola, Inc., Gregory Q. Brown, President & Chief 
        Executive Officer, Schaumburg, Illinois, August 21, 2009 
        letter...................................................   167
      MySpace.com, Rupert Murdoch, Chairman and Chief Executive 
        Officer, New York, New York, August 24, 2010 letter......   168
      Nokia, Olli-Pekka Kallasvuo, President and Chief Executive 
        Officer, Helsinki, Finland, August 27, 1009..............   170
      Nokia Siemens Networks, Rajeev Suri, Chief Executive 
        Office, Espoo, Finland, August 27, 2009 letter...........   176
      Paoletta, Mark R., Partner, Dickstein Shapiro, LLP, on 
        behalf of McAfee, Inc., Washington, DC, August 27, 2009 
        letter...................................................   180
      Siemens, Peter Loescher, President and Chief Executive 
        Officer, Washington, DC, September 2, 2009 letters.......   185
      Skype, Josh Silverman, CEO Luxembourg, August 26, 2009 
        letter...................................................   187
      Sprint, Vonya B. McCann, Senior Vice President Government 
        Affairs, Washington DC, August 27, 2009 letter...........   194
      Symantec, Enrique Salem, Mountain View, California, January 
        20, 2010 letter..........................................   196
      Verizon, Kathryn C. Brown, Senior Vice President, Public 
        Policy Development & Corporate Responsibility, 
        Washington, DC, August 27, 2009 letter...................   198
      Vodafone, Vittorio Colao, Group Chief Executive, Berkshire, 
        England, August 27, 2009 letter..........................   200
      Websense, Gene Hodges, Chief Executive Officer, San Diego, 
        California, letter.......................................   201
Business for Social Responsibility (BSR), Washington, DC, 
  statement......................................................   203
Black, Edward J., President & Chief Executive Officer, Computer & 
  Communications Industry Association, Washington, DC, statement.   206
Center for Democracy & Technology (CDT), Leslie Harris, President 
  & Chief Executive Officer, Washington, DC, statement...........   208
Committee to Protect Journalists, New York, New York, statement..   216
Ganesan, Arvind, Director, Business and Human Rights Program, 
  Human Rights Watch, New York, New York, statement..............   219
Global Network Initiative, March 2, 2010 statement...............   224
Google, Nicole Wong, Deputy General Counsel, Washington, DC, 
  statement and letter...........................................   232
Human Rights First, Washington, DC, statement....................   238
Internews Network, Washington, DC, statement.....................   244
MacKinnon, Rebecca, Visiting Fellow at the Center for Information 
  Technology Policy, Princeton University, Princeton, New Jersey, 
  and Co-Founder, Global Voices Online, statement................   247
Memarian, Omid, Iranian Blogger, San Francisco, California, 
  statement......................................................   259
Microsoft, Pamela S. Passman, Corporate Vice President, Global 
  Corporate Affairs, Redmond, Washington, letter and attachment..   264
Posner, Michael H., Assistant Secretary for Democracy, Human 
  Rights, and Labor, Department of State, Washington, DC, 
  statement......................................................   270
Reporters Without Borders, Washington, DC, statement.............   274
Verma, Richard R., Assistant Secretary, Legislative Affairs, 
  Department of State, Washington, DC, report....................   279
Washington Post, Caylan Ford, January 20, 2010, article..........   281
Weitzner, Daniel J., Associate Administrator for the Office of 
  Policy Analysis and Development, National Telecommunications 
  and Information Administration, Department of Commerce, 
  Washington, DC, statement......................................   283
Wong, Nicole, Vice President and Deputy General Counsel, Google 
  Inc., Mountain View, California, statement.....................   291
World Organization for Human Rights USA, Morton Sklar, Founding 
  Executive Director Emeritus (retired), Washington, DC, 
  statement......................................................   298
Yahoo, Jerry Yang, Chief Executive Officer, Sunnyvale, 
  California, statement and attachment...........................   306


          GLOBAL INTERNET FREEDOM AND THE RULE OF LAW, PART II

                              ----------                              


                         TUESDAY, MARCH 2, 2010

                               U.S. Senate,
          Subcommittee on Human Rights and the Law,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Kaufman, Franken, and Coburn.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing of the Judiciary Committee's 
Subcommittee on Human Rights and the Law will come to order. 
Today's hearing is ``Global Internet Freedom and the Rule of 
Law, Part II.''
    After a few opening remarks, I will recognize those 
Senators who are in attendance for an opening statement and 
then go to our witnesses, whose attendance we appreciate.
    This Subcommittee held our first hearing on this issue in 
May of 2008. At that hearing, we learned that repressive 
governments around the world censor the Internet and persecute 
human rights and democracy advocates who express their views 
online. Since then, the scale and scope of Internet censorship 
has increased dramatically.
    At our hearing 2 years ago, I showed some pictures of 
censored Internet searches on Google and Yahoo!. Today I am 
going to demonstrate that, unfortunately, this censorship 
continues.
    Let me start, if I can do this. What you are looking at 
here on the screen to your left is a Google.com search for the 
word ``Tiananmen.'' You will find pictures of the famous 
Tiananmen Square protests in 1989, especially the iconic photo 
of a demonstrator standing in front of several tanks.
    Now what you see is Google.cn, Google's China search 
engine, and a search for the same word, ``Tiananmen.'' Here you 
will only find beautiful postcard images of Tiananmen Square.
    Let me be clear. I am not singling out Google. Yahoo!, and 
Bing, Microsoft's search engine, also censor the Internet in 
China. And Baidu, the leading Chinese search engine, censors 
even more content than these American companies.
    I want to commend Google again for announcing that they 
plan to stop censoring their Chinese search engine. I look 
forward to an update today on their efforts.
    At our first hearing, we discussed the Global Network 
Initiative, or GNI, which was then being negotiated. The GNI is 
a voluntary code of conduct that requires technology companies 
to take reasonable measures to protect human rights.
    Following the hearing, Senator Tom Coburn, this 
Subcommittee's Ranking Member, and I encouraged Google, 
Microsoft, and Yahoo! to complete the GNI negotiations, and the 
code was launched in October of 2008. I want to commend these 
three companies for their extraordinary leadership in promoting 
Internet freedom.
    Since then, I have asked several dozen other companies to 
consider joining the GNI. Without objection, the companies' 
written responses will be entered into the hearing record and 
also will be made available on my website.
    I am disappointed that a year and a half after the GNI 
started, no new companies have joined.
    Based on the responses that I have received, only three 
companies--AT&T, McAfee, and Skype--have even committed to 
participating in a dialog about joining the GNI. One company, 
Websense, has indicated that they will join the GNI if the 
membership fee is waived.
    Many companies told me that the GNI is not relevant to 
their company's business. The last 2 years have demonstrated 
that that is simply not true.
    The explosive growth of social networking services, like 
Twitter and Facebook, has helped human rights activists 
organize and publicize human rights violations in Iran and 
other places around the world. However, repressive governments 
can use these same tools to monitor and crack down on 
advocates.
    I invited Facebook and Twitter to testify today but they 
refused to appear.
    Last year, the Chinese Government announced that they would 
require all computers sold in China to include software called 
``Green Dam,'' which censors political content and records user 
activity.
    Thanks to the opposition from the U.S. Government and 
companies, the Chinese Government eventually backed down. This 
incident highlighted the human rights challenges faced by 
computer manufacturers.
    I invited Hewlett-Packard and Apple to testify about these 
challenges today, and they also refused.
    Filtering software produced by American companies has 
allegedly been used to censor the Internet in several countries 
with repressive governments.
    I invited McAfee, which produces filtering software, to 
testify today. McAfee initially agreed but on Friday informed 
us that they were pulling out.
    The bottom line is this: With a few notable exceptions, the 
technology industry seems unwilling to regulate itself and 
unwilling even to engage in a dialog with Congress about the 
serious human rights challenges that the industry faces.
    In the face of this resistance, I have decided that it is 
time to take a more active position. At our hearing 2 years 
ago, I indicated that Congress could step in if the industry 
failed to take concrete action to protect Internet freedom.
    Today I am announcing that I will introduce legislation 
that would require Internet companies to take reasonable steps 
to protect human rights or face civil or criminal liability. I 
look forward to working with my Republican colleague Senator 
Coburn and my other colleagues to enact this legislation into 
law.
    I recognize that the technology industry faces difficult 
challenges when dealing with repressive governments, but we 
have a responsibility in the United States--and Congress shares 
in that responsibility--to ensure that American companies are 
not complicit in violating freedom of expression, a fundamental 
human right enshrined in the First Amendment of our 
Constitution and the Universal Declaration of Human Rights.
    Now I want to recognize my colleague Senator Coburn, the 
Ranking Member of the Subcommittee.

STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Coburn. Thank you, Mr. Chairman, and due to being a 
little bit under the weather, I think I will just ask that my 
opening statement be made a part of the record.
    Chairman Durbin. Without objection.
    [The prepared statement of Senator Coburn appears as a 
submission for the record.]
    Chairman Durbin. Senator Franken, do you have any opening 
remarks?
    Senator Franken. I do not. I look forward to the hearing, 
though, and thank you for calling it, Mr. Chairman.
    Chairman Durbin. Thanks, Senator Franken.
    We are going to turn to our first panel of witnesses. The 
U.S. Government has an important role to play in promoting 
global Internet freedom and ensuring U.S. technology companies 
do not facilitate government repression. I look forward to 
hearing about the administration's plans to advance freedom of 
expression around the world. Our witnesses will each be given 5 
minutes for an opening statement. Their complete written 
statements will be made part of the record and posted online.
    I will ask now if the witnesses would please stand and 
raise their right hands to be sworn. Do you affirm that the 
testimony you are about to give before the Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Posner. I do.
    Mr. Weitzner. I do.
    Chairman Durbin. Thank you. Let the record reflect that 
both of the witnesses answered in the affirmative.
    Our first witness, Michael Posner, is the Assistant 
Secretary of State for Democracy, Human Rights, and Labor, our 
Government's top human rights official. Mr. Posner was 
previously founding Executive Director and President of Human 
Rights First, which he headed for 30 years. He has substantial 
expertise in corporate social responsibility and played a key 
role in founding the Global Network Initiative. Mr. Posner has 
a bachelor's degree from the University of Michigan and a law 
degree from the University of California at Berkeley. He first 
testified before the Subcommittee last year when we held a 
hearing on the implementation of human rights treaties, and we 
are glad he is with us again.
    Our following witness is Daniel Weitzner, the Associate 
Administrator for the Office of Policy Analysis and Development 
in the Commerce Department's National Telecommunications and 
Information Administration, and I think he is going to win a 
prize for the longest title of a witness appearing before our 
Committee. Mr. Weitzner is one of our Nation's leading experts 
on Internet policy. Prior to joining NTIA, Mr. Weitzner was 
Director of the MIT Computer Science and Artificial 
Intelligence Laboratory's Decentralized Information Group and 
Policy Director of the World Wide Web Consortium Technology and 
Society Activities. Mr. Weitzner was also co-founder and Deputy 
Director of the Center for Democracy and Technology, and Deputy 
Policy Director of the Electronic Frontier Foundation.
    Your resume is loaded with titles. That is terrific.
    Mr. Weitzner has a bachelor's degree from Swarthmore and a 
law degree from Buffalo Law School. We thank you as well for 
joining us.
    Mr. Posner, would you like to make your opening statement?

    STATEMENT OF MICHAEL H. POSNER, ASSISTANT SECRETARY FOR 
 DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. DEPARTMENT OF STATE, 
                        WASHINGTON, D.C.

    Mr. Posner. Thank you. I want to thank you, Senator Durbin 
and Senator Coburn, for inviting me to testify and for your 
longstanding interest in this subject. I have followed this 
issue quite closely and the Subcommittee's involvement since 
your Part I hearing in 2008, and it is great that you are 
pursuing this.
    When you first addressed Internet freedom, the primary 
concerns of those testifying were content filtering on the 
Internet and harassment and arrest of digital activists. These 
problems persist today. As Secretary Clinton highlighted in her 
January 21st speech on Internet freedom, the State Department 
continues to protest the arrest, detention, and harassment of 
bloggers in Iran, in China, in Egypt, in Vietnam, and 
elsewhere. And countries that seek to filter access to 
information are only becoming more skilled at doing so. These 
problems persist.
    But the threats to Internet freedom are expanding beyond 
restricting access to content. As, again, Secretary Clinton 
described, repressive regimes are co-opting new media tools to 
crush dissent and deny human rights. And while the rapid 
increase in the use of mobile phones creates new platforms for 
connecting people and providing access to information, it also 
creates new threats to free expression and the free flow of 
information. So we have a major set of challenges.
    The State Department since 2006 has had an Internet Freedom 
Task Force which has been re-launched as the Net Freedom Task 
Force, chaired by two of our Under Secretaries, and it is going 
to oversee the State Department's efforts on these issues. I 
want to just quickly cite three aspects of what we are doing.
    The first is advancing Internet freedom through 
programming. Our effort is to provide unfettered safe access to 
information and communication. Beginning in 2008, the Bureau of 
Democracy, Human Rights, and Labor, which I lead, has 
implemented $15 million in programming to support Internet 
freedom. I spell out some of the details in my testimony. We 
are also working with AID, with the Middle East Partnership 
Initiative on a range of specific initiatives aimed at 
providing training to journalists, civil society activists, 
political parties on the use of these new technologies.
    The second thing that we are doing more broadly is 
monitoring and analyzing. Next week we will release the annual 
Human Rights Report of the State Department on human rights 
practices, annual Country Reports. One of the things we are 
going to do in the coming year is to review the reporting 
process and improve and expand on Internet freedom reporting, 
which is an essential piece of what we need to be doing. We are 
going to make the reports more accessible to people around the 
world who have limited access to the Internet, and we are going 
to increase the capacity of our embassy officers to monitor and 
respond when there are threats to Internet freedom.
    And that is really the third aspect of what we are doing--
responding. It is, unfortunately, too often the case that those 
who are involved in human rights and other advocacy are 
themselves targeted because of their advocacy, and those who 
are using the Internet and social networking sites are being 
attacked precisely because they are communicating effectively.
    For example, last fall, when a popular social networking 
site was blocked in Vietnam, we raised the issues with 
officials in Hanoi and in Washington. When bloggers in 
countries such as China and Vietnam and Egypt and Iran are 
threatened, we speak out publicly on their behalf. This is an 
important part of what we can be and need to be doing.
    I want to just say a last comment, and it relates to what 
you spoke about, Senator Durbin, in your opening. This is an 
issue where the Government has a role, but the private sector 
also has a role. As you noted, I was involved before coming 
into Government in the creation of the Global Network 
initiative, which is a multi-stakeholder initiative that brings 
together companies, NGO's, academic experts, and social and 
investing firms.
    I think it is really critical that we and you work to 
figure out ways for companies to step up and take 
responsibility here. We cannot do it alone, and companies 
acting alone cannot make a difference. There needs to be a 
collective response, and I am personally very committed, as are 
others in the State Department, to trying to find ways to work 
collectively with the private sector to make a difference in 
this area.
    Thank you very much.
    [The prepared statement of Mr. Posner appears as a 
submission for the record.]
    Chairman Durbin. Mr. Weitzner.

 STATEMENT OF DANIEL J. WEITZNER, ASSOCIATE ADMINISTRATOR FOR 
    THE OFFICE OF POLICY ANALYSIS AND DEVELOPMENT, NATIONAL 
    TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION, U.S. 
            DEPARTMENT OF COMMERCE, WASHINGTON, D.C.

    Mr. Weitzner. Chairman Durbin and Ranking Member Coburn, 
members of the Subcommittee, thank you for this invitation to 
testify on behalf of the Department of Commerce and the 
National Telecommunications and Information Administration--I 
will work on shortening titles--on the global challenges facing 
the Internet industry. As an advocate of economic growth, 
innovation, and exports, the Department of Commerce's goal is 
to support a global, open Internet as a platform for the free 
flow of information, goods, and services. The Department of 
Commerce is committed to our role as partner with U.S. 
companies, large and small, as they grapple with the challenges 
of operating in countries that reject openness, transparency, 
and the free flow of information.
    The great innovative energy of the Internet is due to the 
fact that even the smallest U.S. Internet startups can be 
reached by user all over the world. With this strength, we must 
also recognize that U.S. companies can become the target of 
arbitrary foreign laws, even if they have no offices in that 
country.
    Today I will summarize the challenges we see facing U.S. 
companies, discuss the importance of transparency on the 
Internet, and update you on the Commerce Department's 
activities to support a commercial, robust, and transparent 
Internet. Let me just highlight three major threats that we see 
very briefly.
    First, U.S. companies are often pressured to block or 
filter Internet content or communications absent any evidence 
of illegality, based on rules that are unclear, unwritten, and 
often lacking due process or transparency.
    Second, some governments would require their Internet 
service providers to assist in electronic surveillance without 
due process or adequate judicial supervision. This puts these 
companies in untenable situations that they should not have to 
face.
    U.S. companies, third, risk being the victims of hacking 
attempts sponsored by overseas criminals, foreign governments, 
or loose-knit groups of both working together. In this era of 
globally integrated, cloud computing platforms, security 
threats in one country can put the entire global enterprise at 
risk. Worse, security has become a pretext often for forced 
compliance with government-imposed technically deficient 
standards, disadvantaging U.S. companies which support global 
Internet standards, and putting the entire Internet at risk.
    Unfair treatment of Internet users and providers threatens 
the Internet's fundamental modus operandi--transparency. Open 
technical standards have enabled rapid innovation and global 
interoperability of the Internet and the applications that run 
on it.
    Despite recent attention to vulnerabilities in the Internet 
infrastructure, we must not lose sight of the extraordinary 
engineering achievements that enable global citizens to 
communicate through a common platform. Transparency is at the 
heart of the Internet's success.
    Looking forward, the Commerce Department will continue its 
successful tradition of working with stakeholders to develop 
Government, industry, civil society partnerships supporting 
Internet development. We have been heartened by the Global 
Network Initiative's ongoing efforts to develop a voluntary 
code of conduct for Internet companies. The Government must be 
a full partner in this effort, we believe, standing up for 
individuals and businesses when the free flow of information 
and human rights are threatened.
    Ensuring that the Internet is open for innovation and 
social progress is a vital priority for the Department. In the 
early months of the new administration, we assembled a cross-
department Internet Policy Task Force whose mission is to 
identify leading public policy and operational challenges in 
the Internet environment. Our task force leverages expertise 
across many bureaus, including international communications 
policy, trade, intellectual property protection, business 
advocacy, and corporate responsibility. Our work began with 
developing a new Internet privacy and cybersecurity. The task 
force has convened consultations with major U.S. corporations 
and innovators across academia and civil society. We have now 
added consideration of global trade barriers along with online 
copyright enforcement and Internet governance.
    In the coming months, outreach will continue as the task 
force will issue Notices of Inquiry on these topics. Based on 
this feedback, the task force will focus departmental resources 
on this challenge and contribute to an administration-wide 
public policy development.
    In closing, let me say from my own experience that the 
Internet was created and has grown to global scale because of a 
unique combination of cooperation and transparency. Academic 
and commercial researchers, as you know, came together to 
create and extend the underlying Internet technology. As the 
Internet grew, it was often cooperative efforts of industry, 
civil society, and Government that came together to solve hard 
social and legal problems.
    The threats to the free flow of information on the Internet 
are serious. We should look to solve them as much as possible 
with the unique cooperative, transparent spirit that gave us 
the Internet in the first place.
    I thank you again for the opportunity to be here and for 
your longstanding attention to this important issue, and I look 
forward to your questions.
    [The prepared statement of Mr. Weitzner appears as a 
submission for the record.]
    Chairman Durbin. Thanks a lot.
    We asked Facebook to testify, and they said, ``We have no 
business operations in China or, for that matter, in most of 
the countries of the world.'' They went on to say, ``As a young 
startup, our resources and influence are limited. We do not 
have the resources to devote to GNI membership.''
    But here are the facts. Facebook has over 400 million 
users, which makes it the second most viewed website in the 
world. About 70 percent of Facebook users are outside the 
United States. Facebook has over 1,000 employees, hundreds of 
millions of dollars in annual revenues, and is worth billions 
of dollars. That is hardly a mom-and-pop operation that cannot 
afford to be a part of GNI.
    And Facebook acknowledges that it engages in censorship. In 
their letter to me, Facebook said, and I quote, ``When content 
shared from a particular jurisdiction violates that 
jurisdiction's local laws or customs, Facebook may take down 
that content.''
    Mr. Posner, it is my understanding that Facebook recently 
asked the State Department for help when they were blocked in 
Vietnam, and you responded by raising the issue with the 
Vietnamese Government. Is that right?
    Mr. Posner. Yes, we have responded--a number of companies 
have come to us. Facebook is one of them. And we are obviously 
trying to promote Internet freedom, so we are trying to be 
cooperative with all of them.
    Chairman Durbin. So if Facebook expects our Government to 
help in resolving efforts to censor their service, it only 
seems reasonable that they accept some responsibility 
themselves for addressing human rights issues.
    Mr. Posner, does Facebook face human rights challenges such 
as censorship that GNI would address?
    Mr. Posner. You know, again, I do not want to single out 
one particular company, but I think it is fair to say that 
companies like Facebook and Twitter are certainly susceptible 
to a lot of the pressures that we have seen others face. The 
technology is changing. The world is changing. Governments are 
getting much more aggressive in trying to regulate and control 
content. So I think it is----
    Chairman Durbin. I do not want to single out one company 
either, so let me single out another one. Let us take Twitter.
    [Laughter.]
    Chairman Durbin. In a letter to me, Twitter expressed 
confidence they were having a positive impact on human rights, 
and I believe that. They said, and I quote, ``Twitter is a 
triumph of humanity, not technology.'' Twitter has helped 
activists to organize and publicize human rights violations, 
but they also face human rights challenges. For example, there 
are reports the Iranian Government is tracking down opposition 
activists who use Twitter. However, in their letter to me, 
Twitter declined to join the GNI saying, and I quote, ``It is 
our initial sense that GNI's draft policies, processes, and 
fees are better suited to bigger companies who have actual 
operations in sensitive regions.''
    Mr. Posner, does Twitter face human rights challenges that 
the GNI could address?
    Mr. Posner. Yes, they do, and I think one of the things 
that makes the GNI to me an important part of the solution here 
is that companies are going to learn from each other. There is 
not one company that is going to have a monopoly on creativity 
or thoughts about how to deal with this. They need to work 
collectively, and that is part of what this initiative is 
designed to do.
    Chairman Durbin. In our next panel, Omid Memarian, an 
Iranian blogger who is a witness today, says in his testimony, 
and I quote, ``It was not the Iranian Government who shut down 
my website, it was the domain and host provider in the United 
States that did it.''
    Testimony by Rebecca MacKinnon, another witness on our 
second panel, indicates that U.S. web hosting companies have 
also denied services to political opposition groups in Zimbabwe 
and Syria.
    I would like to ask you both: What can be done to ensure 
that U.S. sanctions and exports controls do not prevent U.S. 
companies from providing Internet technology and services like 
website hosting to human rights and democracy activists living 
under repressive governments?
    Mr. Weitzner. As you know, Mr. Chairman, the jurisdiction 
for export controls is shared between the Commerce Department. 
We enforce our Export Administration regulations and other 
rules of the State Department as well as the Treasury 
Department.
    As to services such as Twitter and others that you 
mentioned that do not employ any encryption software on the 
user end, as far as we understand, those services are freely 
available around the world from the perspective of U.S. 
regulations. Obviously, as you note, other countries may block 
access to those services. But the Commerce Department's Export 
Administration regulations do not prevent anyone in the world 
from using a service like Twitter. That is because it is a 
service that is based on the Web; it does not require the 
installation of software.
    It is also the case that under Commerce Department 
regulations publicly available, downloadable software with 
encryption can be used widely.
    Chairman Durbin. Let me ask about another issue that is 
related. Some commentators have expressed concern about the 
appearance that the State Department is too close to some 
American Internet companies. For example, last week, Twitter 
CEO Jack Dorsey was a member of an official State Department 
delegation to Russia. Top State Department officials used 
Twitter to post details about their personal lives. Technology 
expert Evgeny Morozov said, and I quote, ``The kind of message 
that it sends to the rest of the world--that Google, Facebook, 
and Twitter are now just extensions of the U.S. State 
Department--may simply endanger the lives of those who use such 
services in authoritarian countries. It is hardly surprising 
that the Iranian Government has begun to view all Twitter users 
with the utmost suspicion.''
    Mr. Posner, are you concerned about the perception that the 
State Department is too close to companies like Twitter and 
Facebook? And how can we combat the impression that these 
companies are just an arm of our Government?
    Mr. Posner. I think we have to be able to work in multiple 
ways as a Government. The fact that there are these social 
networking sites or Internet sites that deploy or allow 
information to be disseminated quickly means that they are a 
tool for all governments and for private citizens. We should 
not reject that. But at the same time, I think we have to be 
clear that there is a separation between Government and these 
private companies. They are not part of the Government. And 
there are certain obligations we are to hold their feet to the 
fire to be acting responsibly as companies.
    So I think we need to be really operating in multiple 
tracks here, not to deny ourselves the ability to use the 
excellent tools that they provide, but at the same time keeping 
the lines clear of who we are and who the companies are and 
holding them accountable for their own actions.
    Chairman Durbin. Thank you.
    Senator Coburn.
    Senator Coburn. Thank you.
    Mr. Posner, you talked about the three things that you all 
are doing in terms of programming, monitoring, and analyzing, 
then responding, and you spoke specifically about responding to 
two or three different instances. Vietnam I think was one that 
you mentioned.
    What has been the effect of that response?
    Mr. Posner. This is a long-term and tough subject for us to 
claim immediate results. It is not going to happen that way. 
Governments are testing the limits, and we're pushing back.
    I think in the long run we are going to succeed because I 
think efforts by governments to control people's ideas are not 
going to succeed. People are going to find creative ways to 
circumvent whatever restrictions governments put up.
    But I think we just have to be resolute in saying we are 
absolutely dedicated, as Secretary Clinton said, to a free, 
open Internet and communications environment without 
restrictions, and we are going to keep pushing for that. And 
when governments push back, we are going to be there to say 
this is counter to American values and American foreign policy.
    Senator Coburn. So there is definitely going to be a 
consistency to your message and a constance to your message.
    Mr. Posner. If we are not consistent, we are not going to 
succeed. Yes.
    Senator Coburn. OK. Mr. Weitzner, you mentioned the GNI in 
your testimony. Given your unique perspective of the diversity 
of all the companies that make up the industry, that offer 
Internet-based goods and services around the world, do you see 
GNI as a framework that will fit every one of those companies? 
Or is there the case that maybe this does not fit some of them?
    Mr. Weitzner. From the perspective of the efforts that we 
imagine at the Commerce Department, our main interest is to be 
a partner with the GNI. It seems unlikely that every single 
Internet company in the United States would join. We certainly 
hope more do. These organizations have to figure out how to 
create the proper kind of fit between their mission and those 
whom they hope to serve. That is not an easy challenge, as you 
know, but we think it is important.
    From the Commerce Department's perspective, we hear from 
companies large and small and across a number of sectors of the 
Internet economy. Certainly small startups may not be able to 
fully participate in the GNI, but we think, first of all, they 
will benefit from the efforts of an organization like that, and 
we are looking very carefully at how we can make the trade 
assistance resources we have available on the ground in over 60 
countries around the world available to those U.S. companies 
who, for whatever reason, do not fit as well.
    Senator Coburn. But you do feel that ultimately they all 
will have some benefit, directly or indirectly.
    Mr. Weitzner. I think that if the GNI can succeed at its 
efforts to bring greater transparency and a set of commonly 
accepted best practices, that would benefit the Internet as a 
whole.
    Senator Coburn. What kind of guidance does your Department 
give to U.S. companies offering Internet-based goods and 
services in Internet-restricted countries to overcome the 
challenges that you outlined in your testimony?
    Mr. Weitzner. I would not say there is a single answer to 
that question, but as I noted, the Commerce Department 
resources, working along with State Department resources in 
many countries, works on a case-by-case basis to work through 
barriers or misunderstandings that companies face. When those 
barriers are seen to be too hard to resolve in individual 
cases, we can escalate those to discussions with the 
governments, and often a government-to-government discussion at 
whatever level can be helpful in a way that the company may not 
be able to muster all by itself.
    This is especially true for smaller companies, for 
companies that do not have the international profile of some of 
the cases that we have seen in the news. So, again, we think 
that we will have an essential role to play in helping U.S. 
companies that way.
    Senator Coburn. Are there some instances of success where 
you have been able to accomplish that?
    Mr. Weitzner. Well, very often these are efforts that 
require cooperation across the executive branch. I would point 
to the recent interactions involving the Green Dam Internet 
filtering requirement that was proposed by the Chinese 
Government. As that issue was raised to various parts of the 
U.S. Government, including the Commerce Department, the 
International Trade Administration, the USTR, State Department, 
and others, we were able to have a dialog with the Chinese 
Government that we think produced results.
    Senator Coburn. OK. The Department of Commerce seems to be 
on the forefront of some of the issues we are discussing today. 
But, on the other hand, I was startled to hear that efforts to 
target Internet policy changes seem to have only just begun.
    Is the Interagency Internet Policy Task Force the first 
such initiative undertaken by the Department?
    Mr. Weitzner. The Department of Commerce's efforts in 
Internet policy go back to more or less the beginning of the 
commercial Internet in the mid-1990's, so early work was done 
in the Department of Commerce in laying out a framework for 
global electronic commerce and laying privacy rules and 
approaches that would be appropriate for the Internet. So I am 
proud to say there is a longstanding tradition at the Commerce 
Department far pre-dating our work, and we intend to continue 
that.
    Senator Coburn. How long before a Notice of Inquiry runs in 
the Federal Register to solicit additional outside opinions?
    Mr. Weitzner. We are hoping to do this in the next couple 
of months.
    Senator Coburn. Why can't it be done immediately?
    Mr. Weitzner. Well, we have been engaging in discussions 
with a variety of companies and technical experts and academics 
to make sure we understand the questions we ought to be asking. 
So we are actively engaged in that, and we are going to get it 
out just as soon as we can.
    Senator Coburn. That is fair. When does the task force 
anticipate making formal recommendations to the Secretary of 
Commerce?
    Mr. Weitzner. We will be working over the course of this 
year, and we expect by the end of the year we will have 
recommendations. But we will be contributing based on what we 
learned in an informal way both to Commerce Department efforts 
and to administration-wide efforts. So we view this as an 
ongoing effort.
    Senator Coburn. You have this tremendous knowledge and 
tremendous experience. Is it always going to be possible for 
U.S. companies to operate in ways that support a global open 
Internet that facilitates the free flow of information, goods, 
and services even with countries that do not share those 
values? And how do we get there?
    Mr. Weitzner. I hesitate to say anything is always 
possible. I think that it will be possible, and I share my 
colleague Secretary Posner's optimism that we will be able to 
make progress on this. I think the history of the Internet has 
been the spread of a recognition that openness is good for 
everyone.
    Senator Coburn. It is a powerful tool.
    Mr. Weitzner. Yes.
    Senator Coburn. OK. Thank you, Mr. Chairman.
    Chairman Durbin. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Mr. Posner, Congress has reserved tens of millions of 
dollars for funding anti-censorship initiatives. Just last 
December, your Bureau called for $5 million of this funding. 
However, as a bipartisan group of Senators has pointed out, the 
application required a significant ``in-country presence,'' 
requiring the groups developing anti-censorship software, for 
example, to actually physically be present in an authoritarian 
country.
    I am no IT expert, but the impression I get is that 
software is pretty portable. I also get the impression that it 
is hard to live in an authoritarian country as an anti-
censorship programmer in a country like Iran.
    Why do we have this requirement? And is it necessary?
    Mr. Posner. Senator, I think there has been some 
misunderstanding of that requirement, and I will say we have 
gotten a range of very exciting proposals from more than 20 
different entities.
    What we are trying to do is create opportunities for people 
operating in tough, repressive places like Iran to get access 
to information. When we talk about presence, we are not talking 
about having servers on the scene or complicated technical 
equipment. What we are trying to do is find entities, a range 
of different groups, who are looking, as we are, creatively at 
how to use Internet, how to use telephone applications to 
better communicate within their own societies. So the field is 
wide open, and we have a range of different applicants for that 
money, many of whom are not physically located in the countries 
that are----
    Senator Franken. In the proposal it says the bulk of 
project activities must take place in-country and last between 
1 and 3 years.
    Mr. Posner. Yes, but when we say that, what we are talking 
about is--for example, let us take the example of Iran. What we 
are interested in doing is providing the kind of training, 
assistance, protection to people, Iranians, who are in within 
their own society trying to open up the free flow of 
information and access to information. We are working with a 
range of groups that are not themselves based in Iran or in 
China or in any of these countries, but we are trying to create 
opportunities for people inside their own countries, their own 
societies, to communicate more effectively. That is the purpose 
of that language.
    Senator Franken. OK. I am not sure I totally follow it, but 
let us go somewhere else. The Washington Post specifically 
criticized the State Department for not giving a cent to a 
group called the Global Internet Freedom Consortium, and, Mr. 
Chairman, without objection, I would like to add a copy of that 
editorial for the record.
    Chairman Durbin. Without objection.
    [The editorial appears as a submission for the record.]
    Senator Franken. According to the Wall Street Journal, 
these are the guys who developed the software that allowed 
protesters in Iran to communicate during and after the 
government crackdown. Can you speak to the Post editorial? Why 
hasn't this group received any funding?
    Mr. Posner. First of all, the group you mention is one of 
the 20-some that applied for funding in December, and those 
applications or that money is now being disbursed--or we are 
reviewing all of the applications and will make a decision in 
the next few months. And the competition was open, and we 
encouraged them to apply and they did, which is a good sign.
    Our approach has been that there is not one magic answer to 
how to circumvent these restrictions, that there needs to be a 
range of tools, a range of different approaches. We sort of 
view ourselves as somewhat like the venture capital firms in 
the Silicon Valley trying a lot of different things. The 
technology----
    Senator Franken. But this group seemed particularly 
successful and is not one that received funding.
    Mr. Posner. There are different views about how successful 
any one of these has been, and we are looking at that. But, you 
know, we are absolutely open to their being a candidate for 
funding and are looking at it very seriously.
    Senator Franken. Thank you.
    Mr. Weitzner, I know that free trade agreements or trade 
agreements are negotiated by the United States Trade 
Representative, not your Department, but I still want to ask 
you this question. Over time, our free trade agreements have 
come to include robust protections for workers and for the 
environment. One of our latest FTAs, the Korean FTA, includes a 
provision protecting ``the free flow of information in 
facilitating trade,'' but it only covers international 
information flows, not intra-country censorship, and also isn't 
mandatory.
    Will this administration support a simple mandatory ban on 
political censorship on the Internet in future trade 
agreements?
    Mr. Weitzner. That is a question I am not prepared to speak 
to right here, but will certainly take it back and consider it. 
I think that as we look at the free trade agreements that we 
have that would be amended and the new ones that are being 
negotiated, it is certainly appropriate to consider the range 
of issues that affect the open Internet. It is clearly in the 
interest of promoting free trade to have an open Internet, and 
we will be happy to come back with you and talk in more detail 
about your suggestion.
    Senator Franken. OK. And you mentioned that part of your 
portfolio is trade and intellectual property, so I just wanted 
to ask--we are talking about a free flow of information and 
Internet freedom here, but I want to also talk for a second, 
that as long as we are considering putting this kind of 
restrictions in our trade agreements that will restrict 
censorship, what are we doing on intellectual property? And can 
we put these together to prevent countries like China from 
ripping off our intellectual property, our movies, music, et 
cetera?
    Mr. Weitzner. As you probably know, Senator, a number of 
the free trade agreements that we have already negotiated have 
intellectual property protection provisions in them, and there 
are negotiations ongoing in other venues to advance that to 
other countries as well. So it is an agenda that is being 
actively pursued by this administration.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Senator Kaufman.
    Senator Kaufman. Mr. Chairman, I want to thank you for 
holding this hearing. I think it is very timely, it is 
important. There is hardly anything I can think of that is more 
important than the free exchange of ideas if we are going to be 
successful in having a peaceful world over the next 20, 30, 40, 
50 years.
    I spent 13 years on the Broadcasting Board of Governors, 
and we wrestled time and again with the problem of Internet 
freedom and how you deal with it in certain countries. And I 
would just like to reinforce what Mr. Posner said, and that is, 
in the late 1990s, we went out to Silicon Valley and talked to 
the experts out there about how do you do this battle and how 
can you win. And they all to a person reassured us that they 
cannot block what it is they were sending. It is always easier 
to send a message than it is to block. It is sort of like 
nuclear where they said one, two, three, four missiles, 
knocking them down is much more difficult than putting them up. 
So the key to this thing in the end is being creative and doing 
more, and people will find their way. That in no way, in no 
way, to know how difficult it is for people to deal--they are 
non-technical people--with these different techniques that are 
available.
    The second thing, I would like to really follow up strongly 
on what Senator Coburn said. I am absolutely convinced that one 
of the secrets of this is government to government. These 
folks, if they think this is important--for instance, if we are 
dealing with a country that we all know--without naming any 
countries--there are always 20 things we want to talk about. If 
this is not on the agenda for discussion, they get the clear 
message we do not care about it. And far too often this issue 
has not been on the agenda, not just the Internet freedom but 
freedom of the press.
    So I am just saying that in those discussions when you go 
overseas, if you do not raise this, they will get the message 
that this really does not matter. So Senator Coburn is right on 
point in my opinion in saying that we have got to stress the 
government-to-government part.
    Can both of you kind of comment on the recent conviction of 
Google executives in Italy for third-party content and what it 
means for Internet freedom and what we can do about it, both in 
the State Department and the Commerce Department?
    Mr. Posner. It is distressing, to say the least, that 
Italian authorities have sought to make representatives, local 
representatives of a private company in a sense the censors of 
content and, you know, we are clearly concerned about the 
ramifications of that as it would spread out across the globe. 
There are obviously sensitivities. The companies, I think, have 
got to take, again, responsibility for monitoring the content, 
but this is a company that, to my mind, was trying to do that 
and, when they were informed about the content, acted 
appropriately and yet they are being targeted by a government.
    So I think this is actually a very important case and one 
that we need to respond to and follow very closely.
    Mr. Weitzner. Thank you, Senator. I would agree that their 
case is very important, and the larger issue that it raises is 
probably even more important.
    One of the first steps that the United States took in 
legislating and creating a legal environment for the Internet 
was to recognize that if we place third parties in the position 
of--whether they are Internet service providers or those who 
host content, such as YouTube, if you place those parties in 
the position of having to figure out what the rules about 
third-party content might be, figure out whether they might be 
liable, the Internet really would grind to a halt. And I think 
that it is an issue that I think we tackled early on in the 
United States, and it is one that I hope we can raise awareness 
of around the world as we go forward.
    Senator Kaufman. And I hope there, again, we will do 
government-to-government, multilateral--this could bring the 
entire Internet to a halt, and it is not in the interest of 
anyone to have this happen. And if Italy gets away with it, 
then more countries will do the same thing.
    One of the models I think we should use going forward on 
this is not voluntary matters, the VOICE Act, to deal with Iran 
and the way Iran blocks the Internet and the things they do. 
And the VOICE Act has the government promoting ways to get 
around, to help folks get around the Iranian blocking of the 
Internet. And, Mr. Posner, we are expecting a report soon. Can 
you kind of give me the status of where we are on that?
    Mr. Posner. As I understand it, the report was--a draft of 
it has been prepared by the BBG, and it is now being reviewed 
in an interagency process, and I think you should get it 
shortly. But it is certainly underway, and I will make sure 
that you get it very soon.
    Senator Kaufman. Good. Thank you.
    Are there any examples beyond Google, what Google is doing 
in China, of corporations taking on charges for Internet 
freedom that you can think of off the top of your head, some 
good stories?
    Mr. Posner. Yes, I would say one of the things that, again, 
has been encouraging to me about the companies that have 
participated in the Global Network Initiative is that they have 
taken internally steps to do things to preempt or to anticipate 
problems. So, for example, we talk about Google. I would also 
talk about Yahoo! in the same breath. They have really 
internally undertaken to make human rights part of their 
internal decisionmaking process, and when they have gone into 
new markets, they have undertaken to review and do country 
analyses so they know what they are getting themselves into.
    I think those sorts of steps, while they are not dramatic, 
are essential. If we are really talking companies stepping up 
and taking responsibility, it starts within their own corporate 
structure, and it starts with their understanding of the places 
where they are operating and taking the time to really evaluate 
the human rights and free expression risks. So I think that is 
the kind of initiative that I am looking at and hoping that 
other companies will follow.
    Senator Kaufman. You know, I think that is a business 
decision, having worked in corporate America, that is a 
decision you make, whether you go into a country where clearly 
you are going to have a problem. But, you know, many people 
attribute the end of segregation in the South to when American 
corporations decided they were going to do away with the good 
neighbor policy. And I think, with all due respect--and I mean 
with all due respect--until corporations decide that they are 
not going to abide by the Internet freedom good neighbor 
policy, we are going to be aiding and abetting, as we have in 
the past, regimes from blocking the Internet, and a lot of it 
is being done with U.S. technology and U.S. companies.
    So I am sensitive to the fact that internally we have to 
deal with it, but at some point someone has got to get up and 
say, ``I am not going to do it.'' And, you know, the slippery 
slopes we all travel, and we all know this, and that is, when 
you say, ``If I don't do it, someone else will,'' that is the 
time to stop back and examine your conscience on what is going 
on.
    The other thing that is kind of an interest of mine--and I 
will just finish with this, if that is OK--is U.S. companies. I 
mean, what is a U.S. company today with multinational 
corporations having so many interests around the world, how do 
you deal--do you deal with non-U.S. companies and what they are 
doing about Internet freedom?
    Mr. Posner. I think one of the challenges we face now and 
the GNI will face in its own operation is trying to re-engage 
particularly with some of the Western European governments and 
companies and some of the Asian companies, the Japanese and 
Koreans and others. This cannot just be a U.S.-based 
initiative. And in the early negotiations or discussions of the 
GNI, several of the telephone companies from Europe were 
nominally involved, preliminarily involved, and they pulled 
back. We are very keen to get European governments and European 
companies in particular, and some of these Asian companies as 
well, to get engaged as well. This has to be a collective 
response.
    Senator Kaufman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you very much.
    I would like to ask a question that may betray my legal 
training back in the early days of our Republic, but I am 
trying to put in my own mind a spectrum of activities where it 
would be--most of us would approve of an Internet company 
cooperating with the Government.
    Example one, child pornography, and our Government in the 
course of an investigation asks for the identification of those 
who have had access to certain websites which we believe would 
be the basis for a criminal prosecution.
    Example two, people venting their political feelings 
bordering on the suggestion of violence against certain public 
officials.
    No. 3, specific threats of violence against an individual, 
a Member of Congress or the President of the United States.
    No. 4, involvement in terrorism, working with groups that 
are literally trying to do us harm.
    No. 5, the disclosure of information classified by our 
Government as top secret which may compromise our National 
security.
    Going up the spectrum here, you can see the severity of the 
issue and the seriousness of the issue. And I am wondering--I 
do not want to oversimplify what we are doing here and say it 
should be easy for companies doing business in other countries 
to know where to draw the line. Where does GNI draw the line? 
How do they draw the line?
    Mr. Posner.
    Mr. Posner. It is an excellent question, and, you know, it 
is probably one of the toughest questions to deal with in a 
practical way. That list you give, we have all sorts of 
constraints now in society against pornography and against 
promoting or supporting terrorism or engaging in violent acts 
or promoting that. I think we have to use the same frame 
globally and say there are certain activities that the 
Government has an obligation to prevent as a matter of law 
enforcement.
    The challenge we face is that the concept of law 
enforcement and national security takes on a very different 
coloration if you are talking about the Government of Iran or 
the Government of China or any others. And the notion of 
national security becomes so overwhelmingly broad that what we 
would consider protected speech, political speech, you know, 
criticism of government action, comes under that rubric.
    So that is the challenge. Companies say, and with some 
justification, we need to follow local law. Somebody tells us 
there is a violation of national security; we need to be 
responsive to that.
    I think the hardest, almost the hardest question is when do 
you say, ``No, that does not feel to us like a legitimate 
national security question; you just do not like being 
criticized'' ? And that is the world we live in.
    Chairman Durbin. How does GNI draw the line?
    Mr. Posner. Well, to be honest, we had many, many 
discussions in the negotiation of the GNI on exactly that 
question, and I think those are going to be the hardest calls 
for companies to make or for Government to make.
    The good news for me is there is an awful lot of activity 
and work that can be done that is short of that where you are 
dealing with pure speech and where, you know, your example, the 
video, you know, the Tiananmen Square image on Google.com ought 
to be the same one that is on the Google site that we all look 
at.
    And so there is a lot of room to be done in promoting free 
expression that I think where there is clearly a path forward 
if companies work together, push the limits, and as Senator 
Kaufman said, we reinforce that with Government action.
    Chairman Durbin. Mr. Weitzner.
    Mr. Weitzner. Thank you. Let me try to address the 
procedural aspect of that question. I think the substantive 
nature of that spectrum that you drew out, we recognize as some 
national variations around the world, and we have always had to 
deal with that. I think some part of the way that we can come 
together in an environment where the Internet can actually 
function globally, where these national differences can be 
accounted for where they are reasonable, but where they do not 
become overall barriers to the free flow of information and to 
the viability of the Internet, is to keep in mind two important 
principles.
    I think that we should have a basic expectation of due 
process. National rules may vary, but when they become 
arbitrary, I think we all have a concern, and that is obviously 
of most concern for the individual rights at stake.
    By the same token, transparency and predictability of these 
rules, wherever they fall on that spectrum and however that 
spectrum evolves over time, are essential if we are going to 
have a viable commercial environment because, as we have 
discussed, companies simply cannot make these choices by just 
throwing darts at a board and trying to figure out what is in 
the mind of the governments that have real power over them.
    I would say that if we can stick to those procedural 
motions of due process and transparency, we have some chance as 
an international community of evolving toward a set of norms 
that everyone can live with. We will never, I think, close the 
gap completely, sad to say, but what we have to work for, both 
for the sake of human rights and for the sake of U.S. 
innovation and global innovation on the Internet, is making 
sure that we have an environment in which everyone is able to 
function with some predictability and stability.
    Chairman Durbin. Thank you.
    Senator Coburn. Senator Franken.
    Senator Franken. I guess I just wanted to make this one 
thing clearer for people listening or watching about the 
situation in Italy, because I think we talked on a pretty high 
level about it. Basically if you are a platform in America, you 
are not responsible for--you cannot be put in prison because 
somebody used your platform to print something that was 
libelous or something like that, and that allows for the free 
flow of information; whereas, in Italy what has happened is 
that Google executives have been prosecuted and convicted--
right?--and will have to go to prison just because something 
showed up using their platform.
    I am only saying this because--I just wanted to clarify it 
for people listening. Sometimes I think we operate on a higher 
level here than--or maybe I am mistaken. Maybe people listening 
are operating on a higher level than we are----
    Mr. Weitzner. Senator, hopefully there is some of both.
    [Laughter.]
    Mr. Weitzner. I know you have a witness from Google on the 
next panel, so I do not want to speak for them. But, yes, I 
think it is a very stark situation. There were criminal 
convictions handed out, and indeed, this situation--and it is 
indeed the case that that sort of conviction would not have 
happened under United States law because of the protections 
that we provide to service providers and platform----
    Senator Franken. I want people to understand this. I 
remember when MoveOn had a contest to do ads, and it was 
basically anti-Bush ads. And one of the people sent in an ad 
comparing the Bush administration to the Nazi regime, which was 
just wrong. You do not do that. The Nazi regime was way, way, 
way beyond parallel. I mean, you cannot do that.
    Now, MoveOn did not know it was up. When it was alerted 
that it was up, it took it down. But I kept hearing shows like 
on Fox saying MoveOn put on an ad comparing, you know, Bush 
with Hitler. You know, I just want people to understand what 
that was and what a platform is and that we cannot hold those 
platforms responsible for things that people put up on the 
platform.
    That is all. Thank you.
    Chairman Durbin. Senator Kaufman.
    Senator Kaufman. Yes, they cannot police that.
    Mr. Chairman, I think I would ask you, in your comments on 
legally how we should deal with this, I think if you go to 
these other countries--and correct me if I am wrong--in my 
experience in them, all--not just the Internet--all jamming of 
broadcasts, all closing down, they do not say we are doing 
anything about it. This is not about the public discourse. This 
is about child pornography. That is the No. 1--I mean, so 
American corporations, when you go to them early on in this 
process and say, ``What are you doing?'' ``Oh, no, we are just 
providing equipment to deal with child pornography.'' When, in 
fact, when you go to the country and you see what is on the 
air, clearly they are blocking everything. This is like Potter 
Stewart's--you know, you pornography, you know when you see it.
    So legally they will say, ``We are doing child pornography. 
We are controlling national security.'' They usually say 
national security. They use that in these very sophisticated 
countries as why they are blocking the Internet. Is that a fair 
analysis of what is going on?
    Mr. Posner. It is. You know, in fact, after Secretary 
Clinton gave her speech in January, I talked to several Chinese 
activists, and that is exactly the way the Chinese Government 
and Chinese media were portraying the speech: ``This is not 
about free speech. It is a pretext. They just want to promote 
pornography.''
    So we sort of live in a world where we assume there is a 
rational discourse about these things. In fact, our intentions 
are being challenged all the time. And the notion of a kind of 
free, open Internet is assumed to be for purposes that we, in 
fact, would also not regard as legitimate.
    Chairman Durbin. Thank you, Senator Kaufman, and thanks to 
this first panel. We appreciate it. We may have some follow-up 
questions and hope you can answer them in a timely fashion.
    If the second panel would please come to the table, I am 
going to ask for unanimous consent to enter into the record the 
assessment of fees for the GNI, which I believe will be 
referred to by one of the witnesses in the second panel. One of 
the companies that was asked whether it would participate in 
GNI said that if the fee would be waived, they would consider 
it. The fees range from $2,000 annual fees for companies with 
annual revenues up to $100 million to $60,000 annual fees for 
companies with revenues over $50 billion. It would seem that 
the fee should not be an impediment or obstacle to those that 
want to actively participate in what we consider to be a very 
valuable thing to the industry.
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. Let me start by asking the three witnesses 
who are before us to please stand and raise your right hand. Do 
you affirm that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Ms. Wong. I do.
    Ms. MacKinnon. I do.
    Mr. Memarian. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
three witnesses answered in the affirmative.
    The first witness is Nicole Wong. She is Vice President and 
Deputy General Counsel at Google, where she is primarily 
responsible for company products and regulatory matters.
    Ms. Wong, again, I want to commend you and your company, 
Google, for engaging with Congress on this critical issue.
    Prior to joining Google, Ms. Wong was a partner at the law 
firm of Perkins Cole. In 2006, she was named one of the Best 
Lawyers Under 40 by the National Asian Pacific American Bar 
Association. Ms. Wong holds a law degree and a master's degree 
in journalism from the University of California at Berkeley. 
She testified before this Subcommittee at our first hearing in 
2008. We thank you for joining us again.
    Following her, Rebecca MacKinnon, a Visiting Fellow at 
Princeton University's Center for Information Technology 
Policy, co-founded Global Voices Online, an international 
network of journalists and bloggers. She is a founding member 
of the Global Network Initiative. Ms. MacKinnon has been a 
research fellow at Harvard's Berkman Center for Internet and 
Society and assistant professor at the University of Hong 
Kong's Journalism and Media Studies Center. She previously 
worked as a journalist with CNN in Beijing for 9 years, serving 
as CNN's Beijing Bureau chief correspondent from 1998 to 2001. 
She holds a bachelor's degree from Harvard College. Thank you 
for being here.
    And our final witness is Omid Memarian, a journalist and 
blogger. He was a Rotary Peace Fellow at the University of 
California at Berkeley Graduate School of Journalism. He 
received Human Rights Watch's highest honor in 2005, the Human 
Rights Defender Award. He was awarded the Golden Pen Award at 
the National Press Festival in Iran in 2002. He has been 
blogging in English and Persian since 2002. He has a bachelor's 
degree from Azad University.
    Mr. Memarian, I know the Iranian Government persecuted you 
simply because you exercised your freedom of speech. Thank you 
for having the courage to continue to speak out and for joining 
us today.
    Let us start with Ms. Wong. You have 5 minutes. Your 
written statement will be put in the record in its entirety. 
Please proceed.

  STATEMENT OF NICOLE WONG, VICE PRESIDENT AND DEPUTY GENERAL 
        COUNSEL, GOOGLE INC., MOUNTAIN VIEW, CALIFORNIA

    Ms. Wong. Thank you, Chairman Durbin, Ranking Member 
Coburn, and members of this Committee. Thank you for your 
continued attention to the issue of Internet freedom. I want to 
talk to you today about the importance of an open Internet.
    An open Internet is what allowed a national broadcaster in 
Venezuela to upload daily newscasts on YouTube after Hugo 
Chavez revoked their broadcasting license because their 
opinions ran counter to his policies.
    An open Internet is what ensured the publication of blog 
reports, photos, and videos of hundreds of Burmese monks being 
beaten and killed in 2007, even after the government shut down 
the national media and kicked out foreign journalists.
    An open Internet is what brought the protests following the 
Presidential elections in Iran last summer to all of our 
attention, even after the government banned foreign 
journalists, shut down the national media, and disrupted 
Internet and cell phone service.
    But the continued power of this medium requires a 
commitment from citizens, companies, and governments alike.
    In the last few years, more than 25 governments have 
blocked Google services, including YouTube and Blogger. The 
growing problem is consistent with Secretary Clinton's recent 
speech on Internet freedom, in which she cited cases from China 
to Tunisia to Uzbekistan to Vietnam. For example, our video 
service, YouTube, has been blocked in Turkey for nearly 2 years 
now because of user videos that allegedly insult Turkishness.
    In 2009, during elections in Pakistan, the Pakistani 
Government issued an order to all of its ISPs to block certain 
opposition videos on YouTube. And, of course, there is our 
experience in China where the last year showed a measurable 
increase in censorship in every medium, including the Internet.
    An open Internet, one that continues to fulfill the 
democratic function of giving voice to individuals, 
particularly those who speak in dissent, demands that each of 
us make the right choices to support a free and strong Internet 
and to resist government censorship and other acts to chill 
speech, even when that decision is hard.
    As Google's deputy general counsel, part of my job is 
handling censorship demands from around the world guided by 
three principles: maximizing access to information on line, 
notifying users when information has been removed by government 
demand, and retaining our users' trust by protecting privacy 
and security.
    No example has received more attention than China in recent 
months. In mid-December, we detected a highly sophisticated and 
targeted attack on our corporate infrastructure, originating 
from China with a primary but unsuccessful goal to access Gmail 
accounts.
    However, it soon became clear that what at first appeared 
to be solely a security incident, albeit a significant one, was 
something quite different. Other companies, from a range of 
businesses--finance, technology, media, and chemical--were 
similarly targeted. We discovered in our investigation that the 
accounts of dozens of Gmail users around the world who advocate 
for human rights in China appear to have been accessed by third 
parties. Let me be clear that this happened independent of the 
attack on Google, most likely through phishing or malware 
placed on those users' computers.
    These circumstances, as well as attempts over the last year 
to limit free speech online, led us to conclude that we are no 
longer comfortable censoring our search results in China. We 
are reviewing our business operations there now. No particular 
industry, much less any single company, can tackle Internet 
censorship on its own. Concerted collective action is needed to 
promote online free expression and reduce the impact of 
censorship.
    We are grateful for lawmakers, and particularly your 
leadership, Mr. Chairman, who have urged more companies to join 
the Global Network Initiative. As a platform for companies, 
human rights groups, investors, and academics, GNI members 
commit to standards that respect and protect users' rights to 
privacy and freedom of expression. Additional corporate 
participation will help the GNI reach its full potential.
    Beyond the GNI, every one of us at the grass-roots, 
corporate, and governmental level should make every effort to 
maximize access to information online. In particular, 
Government can take some specific steps.
    First and foremost, the U.S. Government should promote 
Internet openness as a major plank of our foreign policy. The 
free flow of information is an important part of diplomacy, 
foreign assistance, and engagement in human rights.
    Second, Internet censorship should be part of our trade 
agenda because it has serious economic implications. It tilts 
the playing field toward domestic companies and reduces 
consumer choice. It affects not only U.S. and Internet 
companies but also hurts businesses in every sector that use 
the Internet to reach their customers.
    Third, our Government and governments around the world 
should be transparent about demands to censor a request for 
user information or when a network comes under attack. This is 
a critical part of the democratic process, allowing citizens to 
hold their governments accountable.
    Finally, Google supports the commitment of Congress and the 
administration to provide funds to make sure people who need to 
access the Internet safely get the right training and tools.
    I want to thank each of you for your continued leadership 
in the fight against online censorship. We look forward to 
working with you to maximize access to information and promote 
online free expression around the world.
    Chairman Durbin.
    [The prepared statement of Ms. Wong appears as a submission 
for the record.]
    Chairman Durbin. Thank you, Ms. Wong.
    Ms. MacKinnon.

 STATEMENT OF REBECCA MACKINNON, VISITING FELLOW AT THE CENTER 
   FOR INFORMATION TECHNOLOGY POLICY, PRINCETON UNIVERSITY, 
  PRINCETON, NEW JERSEY, AND CO-FOUNDER, GLOBAL VOICES ONLINE

    Ms. MacKinnon. Thank you, Mr. Chairman, for the chance to 
testify today. I look forward to answering your questions along 
with those of other esteemed members of this Subcommittee.
    After describing how authoritarianism is adapting to the 
Internet--in ways that involve companies, I am afraid--I will 
offer some policy recommendations.
    Now, authoritarian regimes accept these days that they need 
to connect to the Internet in order to be economically 
competitive. But they are also working out how to control 
things well enough to stay in power. Regimes like China and 
Iran and a growing list of others usually start with the 
blocking of websites, but they also use a range of other 
tactics outlined in greater detail in my written testimony. 
They include cyber attacks against activist websites, deletion 
of online content by Internet companies at government request, 
and the use of law enforcement demands in countries where the 
definition of ``crime'' includes political speech, which means 
that companies end up assisting in the jailing and tracking of 
activists, whether or not they had ever intended to do so.
    So what do we do? At the top of my list of recommendations 
is corporate responsibility. Mr. Chairman, your recent letters 
to 30 companies in the information and communications 
technology sector were an important step in advancing the 
conversation about how American companies can compete in the 
global marketplace while at the same time upholding core values 
of Internet freedom.
    Soon after your 2008 hearing on this subject, Google, 
Yahoo!, and Microsoft launched the Global Network Initiative, a 
code of conduct for free expression and privacy, in conjunction 
with human rights groups, investors, and academics, including 
myself. The GNI recognizes that no market is without its 
political difficulties or ethical dilemmas. Every company, 
every product, and every market is different. Therefore, we 
believe in an approach that combines flexibility with 
accountability. But, fundamentally, it is reasonable, I 
believe, to expect that all companies in the information and 
communications technology sector should acknowledge and seek to 
mitigate the human rights risks and concerns associated with 
their businesses, just as they and other companies consider 
environmental risks and waiver concerns.
    Next comes legislation. Law may be needed to induce 
corporate responsibility if companies fail to take voluntary 
action. Meanwhile, however, I recommend some immediate steps.
    It should be made easier for victims to take action in a 
U.S. court of law when companies assist regimes in violating 
their universally recognized rights. We need to incentivize 
private sector innovation that helps support Internet freedom.
    We need to revise export controls and sanctions in two 
ways. On the one hand, we need to fix laws that now make it 
difficult for U.S. Internet companies to legally serve 
activists from sanctioned countries like Iran, Syria, and 
Zimbabwe. Yet, on the other hand, we have to make collaboration 
with repression more difficult by making it harder for U.S. 
companies to sell products and services to regimes with a clear 
track record of suppressing peaceful political and religious 
speech.
    Then there is technical support. Congress deserves great 
praise for supporting the development of tools that help people 
in repressive regimes get around Internet blocking. But these 
tools do nothing to counter other tactics regimes are now 
using. So our support should also include tools and training to 
help people evade surveillance, detect spyware, and guard 
against debilitating cyber attacks; mechanisms to preserve and 
redistribute censored content that has been deleted from the 
Internet; and also support for global platforms through which 
citizens around the world can share information and tactics to 
fight Internet freedom in innovative ways.
    Finally, it is vital that we have continued executive 
branch leadership. Secretary of State Clinton's landmark speech 
on Internet freedom made it clear that this is a core American 
value. In reviving the Global Internet Freedom Task Force, the 
administration can coordinate between Government and industry 
and between Government agencies so that U.S. diplomacy, trade, 
commerce, and national security all can support the goal of 
Internet freedom.
    In conclusion, there is no ``silver bullet'' for global 
Internet freedom. As with physical freedom, Internet freedom 
requires constant struggle and constant vigilance. We will also 
need a supportive ecosystem of industry, Government, and 
concerned citizens working together.
    Mr. Chairman and all other members of the Subcommittee 
Chairman Durbin, I commend you for taking the historic first 
steps in that direction. Thank you.
    [The prepared statement of Ms. MacKinnon appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much.
    Mr. Memarian. If you would please--thank you.

  STATEMENT OF OMID MEMARIAN, IRANIAN BLOGGER, SAN FRANCISCO, 
                           CALIFORNIA

    Mr. Memarian. I welcome this opportunity to speak on the 
important matter of Internet freedom, and I hope that our 
efforts help people around the world to have more access to 
information via the Internet and the other means of 
communication.
    I am a journalist and a senior researcher for the 
International Campaign for Human Rights in Iran, an independent 
nonprofit that monitors Iran's compliance with international 
human rights standards.
    In 2004, I was arrested by the Iranian security forces, and 
I was held in a prison and in a solitary confinement. Then I 
was taken to Evin prison, where hundreds of political 
prisoners--journalists, civil society activists--are being kept 
after the June 12th Presidential election. During my time in 
solitary confinement, I was beaten and psychologically and 
physically tortured repeatedly, and I was told that I cannot 
post my writings on my blog and I should stop working as a 
journalist. There was no actual crime in my case; I was 
arrested and abused for using the Internet to share 
information. Just last year, the blogger Omid Mirsayyafi died 
in detention.
    When I moved to the United States in 2005, I learned that 
my website had been shut down. Don't get me wrong. It was not 
the Iranian Government who shut down my website. It was a 
company that provided the domain and host for me. In a letter, 
the company mentioned the restriction on any transaction with 
Iranian companies. Later I learned that many pro-democracy and 
pro-human rights websites had to change their domain on account 
of that restriction. Anyway, it is very easy for the Iranian 
Government to monitor dot.ir domains.
    When I decided to participate in this hearing, I talked to 
many of my friends who are bloggers or journalists, and those 
who have difficulties to even send a simple e-mail or chat on, 
for example, Yahoo! Messenger. Almost all of them believe that 
any kind of support to give Iranians more access to the 
Internet is supporting human rights and democracy in the 
country, supporting security in the Persian Gulf region, and 
more importantly, saving the lives of many people who are 
threatened by restrictions on information that allow the 
Iranian Government to operate behind closed doors as it 
violates their basic rights.
    As a journalist and a human rights defender, I would like 
to stress the importance of applying standards in a balanced--
not political--way. Not only Iran but numerous other countries 
violate the right to access the Internet, as the other people 
today mentioned. And the United States should support 
compliance across the board. Otherwise, the charge of holding 
double standards will stick.
    So with that in mind, I would like to make four main points 
in my testimony this morning in relation to global Internet 
freedom: First, modifying the U.S. sanctions on Iran.
    Certain sanctions or interpretations of the sanctions have 
seriously damaged the ability of Iranians to access the 
Internet and need to be modified. All mass market software that 
is useful for publishing, communications, and education should 
be exempted from the sanctions.
    Second is the European companies who still sell 
surveillance or censorship technology to the Iranian Government 
need to be exposed and face sanctions. Also, online advertising 
is not allowed for Persian websites. Many companies, such as 
Google or Facebook, do not include Persian or Farsi as a 
supported language for online advertising websites or allow 
targeting users with such a language.
    Also, funding is needed to allow hiring a limited number of 
web developers in Iran. Many of these small activist groups 
need to hire developers to be at their websites. The number of 
web developers with the command of the Persian language outside 
of Iran is very few. These groups need to be allowed to hire 
web developers in Iran. The amount of payments could be capped 
to $10,000 per year to make sure such a solution is not abused 
for other purposes.
    And I have some other suggestions in regard to internal 
access and giving VPN accounts to the activists and using anti-
jamming for satellite broadcasts. As you know, for Iranian 
broadcasts, the U.S. Government could dedicate a specific 
satellite which is hardened against the jamming using 
technologies similar to military satellites. And also providing 
the Iranians with free satellite Internet, which is 
technologically possible. E-mail security, which is very 
important, I think there are companies that can provide those 
kind of technologies. And also PC security, which is another 
idea, but we can discuss it later.
    Thank you.
    [The prepared statement of Mr. Memarian appears as a 
submission for the record.]
    Chairman Durbin. Mr. Memarian, thank you. We have had a 
number of witnesses before this Human Rights Subcommittee who 
have inspired us to continue our work, and you are one of them. 
You have paid a heavy price for your commitment to your 
profession of journalism and for your commitment to free 
expression.
    Mr. Memarian. Thank you.
    Chairman Durbin. And your courage to come here today is 
inspiring to all of us, so thank you very much for doing that.
    I can recall the not too distant past when my mother's 
homeland of Lithuania was finally seeking freedom and 
independence, and what kept us alive in the United States was 
the information that came from Lithuania during those dark and 
dangerous times over fax machines. Well, that was the 
technology of the moment, and the Soviets could not stop us. 
And we were kept up to speed on what was happening on a day-to-
day basis, and we were able to respond in the global media.
    Well, technology has grown in so many different ways, but 
it still is the right avenue, as Ms. Wong has said, for us to 
seek it and use it to promote dialog and expression and 
freedom, which you have sacrificed so much for personally.
    In the course of your testimony, you talked about the 
European companies who sell surveillance or censorship 
technology to the Iranian Government. As a result of U.S. 
sanctions against Iran, U.S. companies are not allowed to sell 
that kind of technology to the Iranian Government. Do you think 
the U.S. Government should make certain American companies do 
not sell surveillance or censorship technology to other 
countries that censor the Internet, such as China or Vietnam?
    Mr. Memarian. I think it is very important to include other 
countries as well, because as some of these countries--Iranians 
provide those kind of technologies through a third country. So 
that kind of technology could go to Iran through China or the 
other countries that have a good relationship with Tehran.
    Chairman Durbin. I suppose after the election that took 
place 9 months ago, there was the expectation that this so-
called Twitter Revolution in Iran would topple the government 
and change Iran. And obviously that has not occurred, and we 
have seen the limits of this activism in Iran. But can you give 
us your view of what impact this had and continues to have in 
inspiring those who question the current government?
    Mr. Memarian. I think if it was not the Internet, God knows 
how many more people would have been killed on the streets of 
Tehran and the other cities. And so it has been really 
important that people could document their narratives of the 
event after the election. So it was very significant.
    Chairman Durbin. I think Ms. Wong made that point as well, 
and I would like to ask you, you saw the introduction here of 
Google China and the reference to Tiananmen Square, and I know 
that your company has announced a change in terms of censorship 
in China. Can you tell me what your timetable is to accomplish 
that? If you would turn your microphone on, please. Thank you.
    Ms. Wong. Thank you, Senator, and it is a very fair 
question so let me take it on directly. We do not have a 
specific timetable. Having said that, we are firm in our 
decision that we will not censor our search results in China, 
and we are working toward that end.
    We have many employees on the ground, some of whom are very 
dear colleagues of mine. And so we recognize both the 
seriousness and the sensitivity of the decision we are making, 
and we want to figure out a way to get to that end of stopping 
censoring our search results in a way that is appropriate and 
responsible. And so we are working on that as hard as we can, 
but it is a very human issue for us.
    Chairman Durbin. Thank you for stating your clear goal, and 
I think we are all sensitive to the fact that there are 
important steps to reach that goal that we want you to make in 
the right way, in an expeditious way but one that is sensitive 
to those elements.
    Earlier I spoke to the panel, the first panel, about this 
gradation of cooperation between a company like yours and the 
government, and I went through a list of possible activities on 
the Internet, asking where we would draw the line: cooperation 
with the government to stop child pornography, cooperation with 
the government in dealing with non-specific politically 
threatening language, cooperation with the government for 
specific threats of violence over the Internet, cooperation 
with the government when there is evidence of advocacy of 
terrorism, and cooperation when it comes to the disclosure of 
information classified as secret by that government.
    You are on the firing line here when it comes to this issue 
and the legal questions you have to face. How would Google 
address these? And how would you draw the lines?
    Ms. Wong. Senator, that is a very insightful observation 
because it is actually something that we wrestle with, and it 
is incredibly difficult not only to look at a specific piece of 
content, but to look at it in the context of the country where 
you are operating. And I think there are multiple layers at 
which you try and address it. The first is making decisions 
about entry into a market in the first place, about what 
frameworks of law that you have to work with. And then when you 
look at particular pieces of content, you try and make 
decisions based on what you know about the laws in that 
country, some of which, like you say, there seems to be almost 
universal agreement on child pornography as bad, and then on 
the other extreme very heavy-handed political censorship.
    Our general solution is to try and figure out which laws 
are appropriate for us to abide by given the values of our 
company and the laws that--or the places where we operate. The 
second part of that solution is one that Mr. Weitzner commented 
on, which is transparency. In every jurisdiction where we are 
required to remove information, we try to be transparent with 
our users that information has been removed to comply with 
government laws. For example that in China where, when we 
remove search results from our dot.cn property, we actually put 
a notice at the bottom of that search result page to let users 
know that information has been removed as required by law. We 
do that on all of our services, and in most of our services, 
what we actually do is link to the demand letter that asked us 
to remove the information so that the user can see exactly who 
requested it and what was requested to be removed.
    Chairman Durbin. I would like to follow up and ask about 
two elements:
    The element of due process in these countries. If you are 
to challenge a government and their assertion of the right to 
know the name of the user or to censor information, do you use 
due process in that country to follow their laws?
    And, second, can you turn to any international 
organizations that establish standards that you try to stand by 
beyond GNI?
    Ms. Wong. Sure. Well, yes, we do try to use the legal 
processes within the country to address--to challenge either 
requests for user information or censorship demands when we 
think appropriate. We have done that in Turkey, for example. 
What that has gotten us is being blocked in Turkey for the last 
2 years. In addition, you know, we are looking in terms of our 
own standards at the GNI principles, but principles that are 
based on the Universal Declaration of Human Rights. And it is 
along those lines that we are trying to ensure the maximum 
amount of access to information.
    Chairman Durbin. If Senator Franken would allow me to ask 
one more question, and I will not need a second round, and I 
will then defer to him. But, Ms. MacKinnon, let me ask you 
about the GNI. I find it interesting that after 2 years we have 
three active participants and some flirtation and some ignoring 
of the operation. What is holding them back? I mean, it cannot 
be money because I put the fee schedule in the record here. It 
is certainly a reasonable fee, $2,000 for a company with $100 
million in revenue. It does not sound like a lot of money, 
although some use that as an excuse. Is there something else 
that you need to tell us, that you can share with us about this 
resistance to make this an American effort or an international 
effort?
    Ms. MacKinnon. Mr. Chairman, that is a very good question, 
and a question I often ask myself. What is holding these 
companies back? And it does seem in part a fear of 
acknowledging that human rights is part of their business, that 
telecommunications and Internet companies, no matter how you 
slice it, have implications for free expression, privacy, and 
human rights. And I think a lot of companies are afraid of even 
having that conversation for fear that people will then hang 
charges on them of various kinds and that they would rather 
just avoid having the conversation at all.
    I think what we saw with Google, Yahoo!, and Microsoft was 
an evolution of self-awareness and a real coming out in terms 
of recognizing it is OK to have this conversation, it is OK to 
recognize that you have responsibilities, and, in fact, if you 
hold yourself accountable, that this is good for your business 
because your users are more likely to trust you, and that if 
you do make mistakes, there is a process by which you can try 
and figure out how to reverse them through a multistakeholder 
group that is trying to help you succeed.
    The point of GNI is not for the human rights groups and the 
academics like myself in the process to play ``gotcha'' with 
the companies, but to really help them avoid making the 
mistakes by anticipating and thinking through in advance. But 
the first step is acknowledging that you are not perfect, that 
you are fallible, that you might even be corruptible as a human 
being in the pursuit of profits, and that you need help from 
society and from a range of actors to help do the right thing.
    And just as it took quite a while, I think, for industry 
over time to recognize they had to have public conversations 
about environmental issues--that took a few decades--and adhere 
to labor standards--you know, 100 years ago, it took a certain 
process for companies to be comfortable discussing these things 
in public, and it has really only been the past few years that 
companies in this sector have been confronted with this reality 
that just because you are connecting people to the Internet 
does not mean you are automatically going to free them, that 
you have responsibilities in terms of how you are setting up 
your business and how you are constructing your relationships 
with different governments and that that matters.
    So Google, Yahoo!, and Microsoft are to be commended for 
making the first step, and I really do hope that other 
companies will recognize that this is not as scary as it may 
seem to them and that it is really essential for the future of 
their business and their credibility, in addition to being the 
right thing to do if they want a free and open Internet to 
continue to exist.
    Chairman Durbin. I am going to close with this question, 
which you may need to think about, maybe not. Let us assume 
that you are a customer or a user of Facebook, Twitter, Apple, 
Hewlett-Packard, companies that are not part of this 
conversation. How could you, if you were a customer or user who 
happens to believe they should be part of this human rights 
effort, most effectively influence them through the Internet?
    Ms. MacKinnon. Well, certainly there are all kinds of 
online activist tools, some of which are--you know, you can 
form Facebook groups, of course. But I think part of it is for 
customers and consumers and users to really think of themselves 
as citizens of the Internet and, look, you need to push these 
companies and services that you are using to do the right 
thing, you need to be active. And also investors should be 
thinking about, OK, when I am investing in stock of these 
different companies, this should be one of the criteria that I 
am using in addition to their environmental and labor behavior 
and also when you are thinking of buying products and so on.
    So there is a whole bunch of different ways to do this, but 
part of it is absolutely for consumers to be talking about 
this, to be putting pressure and saying this company is good, I 
can trust these people, and these people I am not so sure if I 
can trust because they are in denial about whether or not there 
are even any issues about my privacy.
    Chairman Durbin. My guess is before we adjourn this 
hearing, there will be something underway, and I thank you for 
your testimony and you, Senator Franken, for your patience.
    Senator Franken. Thank you, Mr. Chairman.
    I would like to follow up on that because--I think the 
Global Network Initiative is a great start, but--and this is 
for both you and Ms. Wong, and, Mr. Memarian, I want to get to 
you, and I cannot tell you how much admiration I have for your 
work and your courage.
    I think GNI is a great start, but Microsoft is one of the 
members and Yahoo! is one of the members, and I do not see them 
making the same kind of decision that Google has made. I think 
that Bill Gates recently called Chinese censorship very 
limited. I think those were his words. So what do you think we 
can do and others can do to help other companies follow 
Google's lead in China? And that is both to you, Ms. Wong, and 
you, Ms. MacKinnon.
    Ms. Wong. I want to be clear that our decision about China 
was not an easy one. And I do not think for any company that 
will confront how to do business in these regimes it is an easy 
one. We think we have now made the right decision. We stand by 
our decision for sure. I was frankly kind of puzzled by 
Microsoft's statements because they are not consistent at all 
with the conversations we have had over the last 3 years, and 
in our view, you know, the censorship in China is a human 
rights issue. It is not to be minimized.
    Having said that, I think we have been very clear all 
through the GNI process that we are not striving for one-size-
fits-all solutions. This is the right decision for Google. We 
would not propose that--impose our decision on any other 
company, and we do think it is important that they be part of a 
conversation where we actively discuss how things are going in 
a country, and that is an important part of GNI.
    Ms. MacKinnon. Just to follow up on that, within the GNI, 
certainly after the CEOs of Microsoft and some other companies 
made some remarks that were quite disappointing, we had some 
rather heated discussions internally about that. But it is 
absolutely true, as Nicole said, it is not one size fits all, 
that each company has a very different kind of business going 
on in China. Yahoo! actually sold their Chinese business to a 
Chinese company a few years ago and do not actually have 
operational control over that anymore. Microsoft's situation is 
also somewhat different.
    So the idea is not to impose a one-size-fits-all set of 
standards on everybody in a very rigid way but, rather, to help 
the companies be mindful about what decisions they are making 
and what the implications are and to be transparent and 
accountable about those decisions, because part of the 
problem--and Senator Durbin alluded to this--is these companies 
are in China, they have to comply with certain law enforcement 
decisions, but how are you complying with them?
    And so it is an issue of to what extent do they feel 
comfortable that they are complying in a way that is 
transparent and responsible and that they can do that within 
the context of that particular market. And it may be possible 
for one company to do it and not another, depending on the very 
specific relationship they have with the government and the 
very specific nature of their product.
    It is also the case that Google over the past year in China 
has come under tremendous pressure from the government and in 
the Chinese media under the guise really of an anti-pornography 
crackdown, that they have been slammed in the Chinese media for 
exposing Chinese youth to smutty content when, lo and behold, 
you type smutty terms into the search engine, smutty results 
appear.
    And so, you know, a lot of these crackdowns and so on are 
done under the guise of law enforcement and language that we 
use in the West in a very different context. And so there are 
very difficult decisions that companies have to make. 
Oftentimes it is very specific to that company, and the point 
of the GNI is to be flexible and accountable at the same time. 
And next year is going to be the first year where we do our 
first set of evaluations where we start being able to benchmark 
how the companies have done so far, and that will also help 
move the process forward.
    But it is definitely important to get more companies 
recognizing, stepping up and taking responsibility. And the GNI 
is not about, you know, engage or disengage. The fact is that 
there are a lot of different ways in which you can engage. It 
is about how you engage rather than in or out.
    Senator Franken. Thank you. China is a big market. That is 
my guess. And you brought up the issue of companies wondering, 
doing self-examination and talking about how corruptible they 
are. And I suppose if you are looking at potentially the 
world's biggest market and taking yourself out of it on a 
matter of principle, you are making a big decision about how 
corruptible or incorruptible you are.
    Mr. Memarian, thank you for your integrity, your 
incorruptibility. In your testimony you talk about what is 
keeping us from having a greater expansion of freedom of speech 
online in Iran, and rightfully so. But I have a different 
question, and then I might even go over my time, too, Mr. 
Chairman. Can you tell us what technological tools Iranians are 
using right now to get past government censors and 
surveillance? And I want to know what is already working so 
that maybe we can do more to support that.
    Mr. Memarian. There are companies that provide anti-
censorship software so people can go beyond proxies, go behind 
proxies and have access to the Internet and see those websites 
that have been filtered. And private companies and initiatives 
also can provide resources, you know, if you want to do more 
and provide more access for them, you know, initiatives can 
provide resources to support the development of technology 
designed to combat Internet censorship.
    I know many people are working on these kinds of software 
now in San Francisco, in Silicon Valley, and the other States 
are. So those kind of initiatives could be supported by the 
States or the State Department or other companies.
    I just wanted to add something about the fact that some 
companies like Yahoo! and Facebook have not joined the GNI 
initiative. There are many rumors in Iran that Yahoo! and 
Facebook have made a deal with the Iranian Government and 
eventually they will give them the information of their users. 
And the rumors are so strong in a way that some people have 
removed their profiles from Facebook because of the threat that 
they feel.
    So I think the fact that Facebook and Yahoo! are not eager 
to join such initiatives, it is not really acceptable at the 
time that people are--that really it is a matter of life and 
death of some people around the world. The world is not 
suggesting you ask--millions of people in other countries, in 
Iran, in China, in Vietnam, and Egypt, they use these services 
and they are really responsible for what they do or what they 
provide.
    Senator Franken. You know, it occurs to me, there was in 
Mad Magazine a series, an ongoing serial cartoon called ``Spy 
vs. Spy,'' and this whole thing seems to have an element to it 
where there is the anti-censorship technology that is being 
worked on by some people.
    Ms. Wong, the Chairman brought this up. In Mr. Memarian's 
written testimony, he talked about companies like yours and 
Microsoft block certain downloads to people in Iran for fear of 
sanctions. And Mr. Memarian kind of explains that this really 
just hurts the people of Iran because there is encryption 
technology that the Iranian Government already has but the 
people of Iran do not.
    So I was wondering in this ``Spy vs. Spy'' kind of world 
that we are in here, which includes not just technology but 
policy, government policy, and business ethics and self-
searching, what should we be doing about these kinds of 
technologies? Do you think that just the government policy here 
is wrong?
    Ms. Wong. I will confess to not being an expert in export 
control law, but my understanding is that the Office of Foreign 
Assets Controls has certain regulations that prohibit the 
download of applications containing encryption, and that is 
why, in order to comply with those U.S. laws, we do not permit 
the download of certain applications like our Chrome browser, 
for example.
    Senator Franken. Right.
    Ms. Wong. Having said that, our web services are globally 
available, and we do not prohibit users the access to our 
websites within Iran. Whether or not there should be a change 
in those OFAC regulations, I think that totally deserves, just 
based on the conversation I heard today, some consideration. I 
know that, for example, some of the regulations are framed 
according to particular countries. You can have the regulation 
of not exporting certain things, but exceptions are made, for 
example, books because we want to have that flow of information 
and educational materials to a country. Maybe we should start 
to think about some of the tools that companies like ours 
provide in that same category of access to information.
    Senator Franken. I think Mr. Memarian was basically saying 
that the Government of Iran already has access to this 
encryption, so what is the point other than keeping this out of 
the hands of Iranians. Right?
    Mr. Memarian. That is true, and I think that the sanctions 
are really blanket and should be revised and modified. I 
understand the concern of those companies which do not risk 
because the Iranian market is small and these companies prefer 
to stay away from it. Instead of spending tens of thousands of 
dollars on legal fees to apply for an export license, they 
prefer just to forget it. So if those sanctions would be 
modified, I think that really helps.
    Senator Franken. Well, thank you, Mr. Chairman, for 
indulging me. Mr. Memarian, thank you for your courage.
    Mr. Memarian. Thank you.
    Senator Franken. Thank you, Ms. Wong, and thank you, Ms. 
MacKinnon.
    Chairman Durbin. Thanks, Senator Franken, for your interest 
in this hearing.
    On the last question that you asked, I would submit for the 
record, and ask that it be made part of the record, a letter 
from Rich Verma, Assistant Secretary for Legislative Affairs, 
to Senator Carl Levin which notes that the Department of State 
is recommending that the Department of Treasury's Office of 
Foreign Assets Control issue a general license that would 
authorize downloads of free mass market software by companies 
such as Microsoft and Google to Iran for personal 
communication. So our Government is asking for a waiver so that 
they can provide that additional information.
    [The letter appears as a submission for the record.]
    Chairman Durbin. I also have a statement, which I will 
enter into the record, without objection, from the Chairman of 
the Committee, Senator Patrick Leahy, as well as statements 
from Business for Social Responsibility, Computer and 
Communications Industry Association, the Global Network 
Initiative, and Reporters Without Borders, which will be 
entered without objection in the record.
    [The statements appears as a submission for the record.]
    Chairman Durbin. I want to thank this panel and the 
previous panel, two extraordinary panels before this Committee 
on a critically important topic, brought home by your 
testimony, Mr. Memarian. You urged us to think about the 
millions of people around the world looking for a ray of hope 
each day so that they should continue in their struggle for 
freedom and find it when they can reach others on the Internet 
who share their beliefs. This is what made America in its 
earliest days--Thomas Paine did not have access to the 
Internet, but his pamphlets were distributed and inspired a lot 
of people to fight for freedom. You have inspired us, as I 
mentioned earlier, by coming here today and testifying, 
particularly about the sacrifice you made in Iran to help that 
country move forward. I want to thank you for that.
    We are going to continue to work on this issue. It may not 
be 2 years before we meet again, but let us hope that a lot of 
the companies that refused to be part of this hearing will have 
second thoughts and will make the right decision to move 
forward.
    This hearing stands adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
